         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report


Management Controls over the
Hanford Environmental
Information System




OAS-M-07-06                  September 2007
                              Department of Energy
                                  Washington, DC 2 0 5 8 5

                                  September 17, 2007




MEMORANDUM                                          RICHLAND OPERATIONS OFFICE

FROM:
                       /
                           Assistant Inspector General
                             for Perfonnance Audits
                           Office of Inspector General

SUBJECT:                   INFORMATION: Audit Report on "Management Controls
                           over the Hanford Environmental Information System"

BACKGROUND

The Hanford Environmental Information System (HEIS) database is the official
repository of data from soil, biota, atmospheric, miscellaneous material, surface water
and groundwater samples at the Hanford Site. The HEIS is required by the Tri-Party
Agreement, which is a legally binding agreement among the Department of Energy
(Department), Washington State Department of Ecology and the U.S. Environmental
Protection Agency (EPA). The majority of the data in HEIS is associated with samples
collected in support of the cleanup requirements, groundwater monitoring, environmental
impact statements, waste site remediation and characterization, and biological/ecologica1
monitoring. In particular, data contained in HEIS is obtained from samples taken to
characterize the level of contamination at a site before and during cleanup, as well as
san~plestaken to monitor the site at the completion of cleanup.

As the official repository for environmental samples at the Hanford Site, it is important
that HEIS contain complete data, especially regarding the number and locations of
sanlples and sample results in terms of detected contamination levels. Sample data
contained in HEIS is used to assist in making cleanup decisions.

Given its importance to Hanford's cleanup effort, the objective of this audit was to
deternine whether HEIS contains complete environmental sampling data.

RESULTS OF AUDIT

Our review disclosed that HEIS did not contain complete environmental sampling data.
Specifically, HEIS did not always:

           Contain required sample data obtained from sites that had been cleaned up to
           regulatory standards; and,

           Identify the location of where samples were taken. This infonllatioil is needed
           to assist in developing environmental models and making cleanup decisions.



                                 @    Printed w ~ t hsoy tnk on recycled papcr
'The Departnlent did not ensure that the River Corridor Cleanup contractor entered
required sample data into the system. In particular, the contractor was not required to
reconcile sa~upledata contained in hard copy reports used to document that sites had been
cleaned up to regulatory standards with sample data contained in HEIS. As a result,
contractor persorznel were unaware that data from 14 of the 5 1 reports that we tested was
not in the database. Additionally, the Department did not require contractors to update
HEIS for missing sample location data that was not entered into the system prior to
August 2003. Finally, the Department did not require contractors to participate in an
advisory group specifically established to address HEIS data quality issues such as
incomplete sample data being entered into the system.

As a result of incon~pletedata, the Department is at a greater risk of making uninformed
cleanup decisions and being unable to defend against litigation. For example, the
Department recently had to rely on source documents rather than HEIS data to assist in
preparing an Environmental Impact Statement necessitated by a legal challenge made by
the State of Washington. If HEIS had been reliable, it would have been a more cost-
effective data source than the hard copy documentation which had to be searched for and
retrieved.

MANAGEMENT REACTION

The Department's Richland Operations Office concurred with the report
recon~mendationsand provided actions in their comments. The Office of Inspector
General considers management's actions responsive to the audit recommendations.

Attachment

cc: Assistant Secretary for Environmental Management
    Chief of Staff
    Team l,eader, Audit Liaisc~?Tezm, CF-1.2
    Audit Liaison, EM-33
    Audit l,iaison, Richland Operations Office
REPORT ON MANAGEMENT CONTROLS OVER THE HANFORD
ENVIRONMENTAL INFORMATION SYSTEM


TABLE OF
CONTENTS


  Maintaining the Hanford Environmental Information System

  Details of Finding                                         1

  Recommendations and Comments                               3


  Appendices

  1. Objective, Scope, and Methodology                       4

  2. Management Comments                                     5
MAINTAINING THE HANFORD ENVIRONMENTAL INFORMATION
SYSTEM

Maintaining the   The Hanford Environmental Information System (HEIS) did
System            not contain all of the environmental sampling data needed to assist
                  in making cleanup decisions and to demonstrate the results of
                  cleanup actions.

                              Missing Closeout Data to Support Cleanup

                  Sampling data from hard copy Cleanup Verification Packages
                  (CVPs) are required to be entered into HEIS. However, we found
                  that data had not been entered into HEIS from 14 of the 51 CVPs
                  we tested. The 14 CVPs had 110 sample records that contained
                  data results for contaminants of concern in soil samples. These
                  samples are taken to demonstrate that the sites had been cleaned up
                  to regulatory standards.

                                Samples Missing Location Information

                  In addition, we noted that HEIS did not always include a unique
                  identifier that defined the location of where the sample was taken.
                  Specifically, our test work of HEIS data showed that more than
                  8,000 sample records did not contain sufficient information to
                  define the location of where the sample was taken. This
                  information is critical because, according to the contractor's project
                  lead for the HEIS database, the usefulness of sample data is limited
                  without the location of where the samples were taken.

Institutional     Sampling data in HEIS was incomplete because the Department
Controls          did not:

                      •   Ensure that the cleanup contractor reconciled hard copy
                          data contained in CVPs to the HEIS database;

                      •   Update the location identifier for the 8,000 sample records
                          which were omitted prior to August 2003; and,

                      •   Require contractor participation in the advisory group
                          established to specifically address HEIS data entry and
                          quality issues.

                  Although the regulator approved a Sampling and Analysis Plan for
                  the cleanup of the 100 Area, which calls for all closeout data to be
                  stored in HEIS, we found that the current River Corridor Cleanup
                  contractor entered only selected data into HEIS on a periodic basis.




Page 1                                                             Details of Finding
               In fact, River Corridor Cleanup contractor personnel were unaware
               that certain information was not in HEIS until we brought the 110
               missing sample records to their attention. We also determined that
               the contractor had not reconciled the CVP data to HEIS to ensure
               that the database was complete.

               Also, HEIS has not been updated to include certain missing
               location information. Although the Tri-Party Agreement stipulated
               the establishment of standards for location data in 1993, HEIS
               location data did not begin to be consistently entered until 2003
               when database controls were implemented to require an entry to be
               made. Some of the records had a general location noted in a
               separate text field. However, placing the data in this field would
               make it difficult for the Department or contractor to search the
               system. Thus, these records could not be used in any form of
               environmental modeling.

               HEIS obtains data from several sources including the River
               Corridor Cleanup contractor, and is used by numerous groups
               including the Department, its contractors and regulators. A HEIS
               Technical Advisory Group (HTAG) was established to address
               data entry, data quality, and other database issues. Although this
               group was intended to address data entry and quality issues, the
               Department had not required its cleanup contractors to participate
               in the monthly HTAG meetings. Therefore, the advisory group
               had no effective mechanisms to resolve issues such as discussed
               above regarding data completeness.

Managing the   As a result of incomplete data, the Department is at a greater risk
Legacy         of making uninformed cleanup decisions and being able to defend
               against litigation. For example, the Department discovered data
               quality errors in the 2004 Hanford Solid Waste Environmental
               Impact Statement. In response to a State of Washington challenge
               to that Statement, the Department agreed to prepare a new, broader
               Environmental Impact Statement. The Department used source
               documents to assure data quality in preparing the new, broader
               Statement rather than rely on HEIS, the official repository. If
               HEIS had been reliable, it would have been a more cost-effective
               data source than the hard copy documentation which had to be
               searched for and retrieved. Finally, if HEIS, as the official data
               repository, is not properly maintained, the Department may not
               attain its strategic goal to manage post-closure environmental
               responsibilities and ensure future protection of human health and
               the environment.




Page 2                                                        Details of Finding
RECOMMENDATIONS    We recommend that the Manager, Richland Operations Office:

                         1. Ensure that cleanup contractors sample data is entered
                            into HEIS;

                         2. Evaluate records missing location information in HEIS
                            and update as appropriate; and,

                         3. Require participation by all Hanford Site data owners in
                            a Technical Advisory Group that is structured to resolve
                            data quality issues.


MANAGEMENT AND     Management concurred with the report recommendations and
AUDITOR COMMENTS   noted that the findings were consistent with its internal evaluation.
                   Management stated that it would require contractors to develop or
                   update procedures for entering sample data into HEIS, review and
                   approve the procedures, and periodically verify the completeness
                   of sample data. Management also agreed to direct the contractor
                   responsible for the HEIS database to evaluate and update location
                   information. Finally, Management said that it would direct
                   contractor data owners to participate in the Hanford Technical
                   Advisory Group established to address data entry, data quality,
                   database structure, and application issues.

                   The Office of Inspector General considers management's actions
                   responsive to the audit recommendations.

                   Management comments are included in their entirety in
                   Appendix 2.




Page 3                                          Recommendations and Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the Hanford
              Environmental Information System contains complete
              environmental sampling data.


SCOPE         The audit was performed from October 2006 to July 2007, at the
              Hanford Site in Richland, Washington. The scope of the audit
              covered the Hanford Environmental Information System.


METHODOLOGY   To accomplish the audit objective, we:

                   •   Obtained and reviewed annual budget documents for the
                       Hanford Environmental Information System;

                   •   Researched Federal and Departmental regulations;

                   •   Analyzed and assessed the Department and Fluor
                       Hanford, Inc. internal controls over managing the
                       Hanford Environmental Information System;

                   •   Analyzed the Fluor Hanford, Inc. contract Statement of
                       Work with the Department pertaining to data
                       management services for the Hanford Environmental
                       Information System; and,

                   •   Interviewed key personnel in the Richland Operations
                       Office, Fluor Hanford, Inc., Pacific Northwest National
                       Laboratory, and Washington Closure LLC.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              We assessed internal controls established under the Government
              Performance and Results Act of 1993 related to the Department of
              Energy's Richland Operations Office Hanford Environmental
              Information System at the Hanford Site. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit.
              Regarding our reliance on computerized data, we satisfied our
              audit objective by determining that the data was incomplete.

              The Richland Operations Office waived an exit conference.




Page 4                                    Objective, Scope, and Methodology
Appendix 2




Page 5       Management Comments
Appendix 2 (continued)




Page 6                   Management Comments
                                                                    IG Report No. OAS-M-07-06

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
